LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 17, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-16:

ALLEN PEITHMAN, JR., AEP PROPERTIES, L.L.C., SHARON A. ELDER
V. UNITED STATES OF AMERICA

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioners, on September 17, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Respondent:
RESPONDENT:
Noel Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov
This service was effected by depositing three copies of the Petitioners' Reply
Brief in an official “first class mail” receptacle of the United States Post Office as well
as by transmitting a digital copy via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

